                     United States Attorney S. Amanda Marshall
                                  District of Oregon

FOR IMMEDIATE RELEASE                                           CONTACT: SUE RUTLEDGE
TUESDAY, OCTOBER 18, 2011                                            PHONE: 503-727-1121
WWW.USDOJ.GOV/USAO/OR

 DAUGHTER SENTENCED TO PRISON FOR THEFT OF RETIREMENT BENEFITS

       EUGENE, Ore. – A Cottage Grove woman was ordered to serve 18 months in prison for
the 26-year theft of her missing father’s retirement benefits. Martha B. McRae, 63, appeared
before U.S. District Court Judge Michael R. Hogan today and was also ordered to pay
approximately $850,000 in restitution to the Social Security Administration (SSA), the Office of
Personnel Management (OPM), and the Defense Finance and Accounting Services (DFAS).

        The theft was discovered after SSA attempted to contact all SSA beneficiaries over the
age of 100 as part of its effort to combat fraud, waste, and abuse. McRae’s father would have
been 103 years old. SSA determined that McRae’s father had been missing since 1984 and
McRae had been withdrawing his benefits from a joint account. The investigation also
determined that McRae forged her father’s signature twice in documents submitted to OPM and
DFAS in an effort to prevent the agencies from discovering the theft.

        The case was investigated by agents from the Social Security Administration Office of
Investigations, Office of Personnel Management Office of Investigations, and the Defense
Finance and Accounting Service Criminal Investigations. The case was prosecuted by Special
Assistant United States Attorney Helen L. Cooper, as part of a partnership venture between the
Seattle Region, Social Security Administration, Office of the General Counsel, and the United
States Attorney’s Office in Portland, Oregon.

                                              ###
